No. 20-255

 

 

In The Supreme Court of the United States
MAHANOY AREA SCHOOL DISTRICT,
Petitioner,
Vv.
B.L., A MINOR, BY AND THROUGH HER FATHER LAWRENCE LEVY AND

HER MOTHER BETTY LOU LEvy,
Respondents.

 

On Writ of Certiorari to the
United States Court of Appeals for the Third Circuit

AMICUS BRIEF OF THE AMERICAN CENTER
FOR LAW AND JUSTICE
IN SUPPORT OF NEITHER PARTY

CERTIFICATE OF SERVICE

 

Walter M. Weber, a member of the Bar of this Court and an attorney for amicus, pursuant to
Rule 29.5(b), hereby certifies that one copy of the Amicus Brief of the American Center for Law
and Justice in Support of Neither Party has this day been served upon all parties required to be
served, by first-class mail, postage prepaid, mailed from Washington, DC to counsel at the
addresses below. In addition, a PDF version of this document is being transmitted electronically
to counsel listed below.

Lisa Schiavo Blatt Witold J. Walezak
Williams & Connolly LLP ACLU of Pennsylvania
725 12" Street, NW P.O. Box 23058
Washington, DC 20005 Pittsburgh, PA 15222
Iblatt@we.com vwalezak@aclupa.org
(202) 434-5050 (412) 681-7864

Counsel for Petitioner

   

Walter M. Weber
March 1, 2021

 
